November 9, 2007

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – Use of Existing Postal-Owned Space in the New York Metro
         Area (Report Number SA-AR-08-002)

This report presents the results of our self-initiated audit of the use of existing postal-
owned space in the New York Metro Area (Project Number 07YG005CA000). This is
our fourth report in a series to determine what each area does to optimize underutilized
and vacant space. At the conclusion of our area audits, we will issue a capping report
addressing common issues and best practices noted.

                                      Background
Facilities is an enabling organization within the U.S. Postal Service whose primary
mission is to (1) provide quality real estate and facilities products and services to meet
present and future needs of postal organizations and (2) realize optimum value from
facilities assets and transactions. Facilities is headquartered in Arlington, Virginia, and
there are eight Facilities Services Offices (FSO) throughout the country.

The FSOs are responsible for the majority of the Postal Service’s facilities program
work. This includes planning, leasing, contracting, acquiring, designing, and
constructing facilities to house postal operations. Facilities headquarters provides
organizational administration, policy and procedure development, and realty asset
management functions.

The Realty Asset Management (RAM) organization, located at Facilities headquarters,
provides internal expertise to identify, analyze, and maximize the return on underutilized
and excess real property assets that the Postal Service controls. This organization
generates income from real estate assets by developing Postal Service real property to
its highest and best use, outleasing excess postal-owned space or subleasing excess-
leased postal space to governmental and public tenants, and selling excess real
property.
Use of Existing Postal-Owned Space                                           SA-AR-08-002
 In the New York Metro Area


The Postal Service is to use the criteria contained in Administrative Support Manual
(ASM) 13, Chapter 5, Sections 13 and 517, to identify underutilized and vacant space.
These criteria stipulate that installation heads review the inventory of postal-owned
property at least annually to determine whether there are any properties for which the
Postal Service has no foreseeable need. According to Postal Service management,
headquarters has requested the field to input information regarding vacant and excess
space to a national database (Facilities Database [FDB] system). This provides a
standard format for annual reporting and a method to submit additional excess space as
it becomes available.

RAM relies upon installation heads to report excess space through the “My Post Office”
application within the Postal Service’s intranet. RAM then contacts the installation
heads to obtain additional information about the reported space and determine whether
it fits the criteria for excess space. RAM downloads the information from the Facilities
Management System (FMS) in the form of the Vacant Space Report and uses it to
determine workload and to prioritize their efforts to market the excess space.

The Postal Service owned 8,479 facilities as of June 15, 2007. In addition, the Postal
Service leased 25,431 facilities totaling over 550 million square feet and spent over
$829 million on lease contracts annually. The New York Area owned 459 facilities and
leased 1,126 facilities, totaling over 13 million square feet at an annual rent of over
$104 million.

                         Objective, Scope, and Methodology
The objective of the audit was to determine whether the Postal Service could realize
cost savings by optimizing underutilized and vacant space to avoid future leasing costs.
Specifically, we evaluated the procedures and systems the Postal Service uses to
identify underutilized and vacant space and whether it uses this information to
determine leasing needs. Our audit scope included underutilized, vacant, and leased
administrative space in the New York Metro Area. We chose to focus our review on
administrative space because management can most easily move the administrative
departments to new locations. Through discussions with postal officials, we learned
that retail units and processing and distribution centers are often problematic to move
due to service area concerns, and the cost and effort involved in conforming new
facilities to meet Postal Service specifications.

To accomplish our objective, we reviewed documentation and applicable policies and
procedures. We also visited postal facilities, interviewed managers and employees, and
examined any other material deemed necessary to accomplish our audit objective. We
judgmentally selected two districts, the New York and Northern New Jersey Districts,
within the New York Metro Area to visit. We chose these districts based on their
proximity to the New York Metro FSO and the area office. In addition, the Northern New
Jersey district had the most leased administrative space in the area. (See Appendices
A and B.)




                                            2
Use of Existing Postal-Owned Space                                                                 SA-AR-08-002
 In the New York Metro Area


We conducted this performance audit from December 2006 through November 2007 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on August 22, 2007, and
included their comments where appropriate.

A previous U.S. Postal Service Office of Inspector General (OIG) audit identified
weaknesses in the computer systems we relied on for data.1 The audit team helped
alleviate those risks by using the FDB to provide support for the data we received from
Facilities Management System – Windows (FMSWIN). We relied on computer-
generated data from several Postal Service financial systems, including FMSWIN and
the FDB, after performing specific internal control tests on these systems’ data, to
include verifying locations of specific Postal Service properties. For example, we
verified different facilities’ data by talking to Postal Service management and comparing
the data in the two computer systems. In addition, Postal Service management stated
the Building section within the FDB Real Estate module lists five data fields that were
directly populated from the FMS and these fields should be the same in electronic FMS2
and the FDB system.

                                       Prior Audit Coverage
In the last 5 years, the OIG issued the following reports specifically related to the audit
objective, although not necessarily specific to the New York Metro Area:

        1. Use of Existing Postal-Owned Space in the Pacific Area (Report Number
           CA-AR-07-005, dated June 14, 2007); and Use of Existing Postal-Owned
           Space in the Great Lakes Area (Report Number CA-AR-07-002, dated
           May 18, 2007). These were the first two reports in this series that revealed
           that the Pacific and Great Lakes Areas did not have formal procedures in
           place to track underutilized and vacant space. As a result, it was not possible
           for the audit team, or management, to identify all underutilized or vacant
           space and thereby determine whether the Postal Service could realize
           savings by avoiding future lease costs. We recommended that the Pacific
           and Great Lakes Areas formalize and document procedures to identify, track
           and report underutilized and vacant space, as well as regularly update the
           Excess Space Report. Management agreed with these recommendations
           and implemented corrective actions. We also recommended that the Pacific
           Area move the Pacific FSO to vacant space at the Embarcadero Postal
           Center, to avoid future leasing costs. Management disagreed with this
1
  Audit Report – Review of the Facilities Management System for Windows (Report Number IS-AR-02-003, dated
February 22, 2002).
2
  FMSWIN data was transitioned to the next generation facilities system, electronic FMS, on December 4, 2006.



                                                        3
Use of Existing Postal-Owned Space                                                                    SA-AR-08-002
 In the New York Metro Area


             recommendation because they were considering selling the Embarcadero
             Postal Center. They agreed to consider relocating the FSO into the vacant
             space if plans to sell the property change.

         2. Financial Opportunities of Underutilized Land (Report Number CA-MA-04-
            004, dated July 1, 2004). This report identified underutilized property and
            stated that policies and procedures do not exist to require identification of
            underutilized land at active facilities. We recommended that Realty Asset
            Management continue its efforts to dispose of underutilized land, and revise
            the policy requiring districts to identify underutilized land in their reviews of
            excess property. Management agreed with the recommendations and
            implemented corrective actions.

         3. Realty Asset Management Program (Report Number CA-MA-04-002, dated
            January 9, 2004). This report revealed that the process for identifying and
            reporting excess facilities and vacant space needed improvement. Postal
            Service area officials did not annually review their inventory of postal-owned
            property, nor did they identify vacant leased space. Management agreed with
            our recommendations to communicate and enforce existing annual
            requirements to review and identify any excess postal-owned property with
            appropriate area and Facilities personnel; enhance reporting requirements of
            annual reviews; and develop a process to identify excess space on a regular
            basis.

                                                    Results
Procedures for Tracking and Reporting Underutilized and Vacant Space in the
New York Metro Area

The New York Metro Area did not monitor or actively track and report underutilized and
vacant space. Further, neither the audit team nor New York Metro Area management
could identify all underutilized and vacant space in the area. As a result, there was no
way to ensure the area optimized the use of such space to avoid future leasing costs.
ASM 13, Chapter 5,3 requires installation heads to review the inventory of postal-owned
property at least annually, to determine whether there are any properties for which they
have no foreseeable need, and report it through the FDB System.

Although at the time of our audit we identified efforts by New York Metro Area and FSO
management to identify and utilize postal-owned vacant space,4 we determined they did
not formalize, communicate, or enforce policies and procedures outlined in the ASM to

3
 ASM 13, Chapter 5; Section 513, page 6; Section 517, page 10.
4
 The Northern New Jersey District has a liaison between the district and the FSO whose priorities are leases, repairs
and alterations. As a result, the liaison is aware of vacant and underutilized space in the area and helps
communicate that information between the Northern New Jersey District and the FSO. In addition, the New York
Metro Area began a unique approach to generate revenue by selling to developers the postal-owned rights to build
on existing property.



                                                          4
Use of Existing Postal-Owned Space                                            SA-AR-08-002
 In the New York Metro Area


ensure consistent tracking and reporting of such space. We believe the Postal Service
would benefit from using a consistent method to identify, track, and report on
underutilized and vacant space. The Postal Service may be missing opportunities to
reduce future lease costs and realize long-term savings for the organization when there
are informal and inconsistent procedures to actively track leased space and
identify underutilized and vacant space.

Recommendation

We recommend the Vice President, New York Metro Area Operations, in coordination
with the Vice President, Facilities:

   1. Develop procedures for communication between installation heads, district
      managers and Facilities Service Offices to identify and track underutilized and
      vacant space.

Management’s Comments

Management agreed with the finding and recommendation and stated that installation
heads will be reminded semi-annually of their responsibility to report excess space,
building and land utilization utilizing the FDB program. In addition, they stated, New
York FSO and New York Metro Area personnel will work together to identify
underutilized and excess real property with the intent of ensuring the available space is
reviewed, analyzed, and put to its highest and best use.

Management added that since there is no centralized tracking system, which includes
both administrative and rentable space, headquarters level management should
address the need for a national database, rather than establishing and maintaining an
individual area system. They felt that the current revenue generation effort by the
Realty Asset group should assist in the disposal, development and management of
excess space.

Management also stated the Facilities Condition Assessment Program is currently
underway for fiscal year 2008, and these facility assessments should provide updated
and verifiable excess space information for all Postal Service-owned facilities by 2011.
In addition, they stated it is standard operating procedure for Facilities to review all
available space within a 10-mile radius of any facility where the Postal Service is
considering renewing a lease. Management comments in their entirety are shown in
Appendix C.

Evaluation of Management's Comments

Management's comments are responsive to the recommendation and actions taken and
planned should correct the issue identified in the finding.




                                            5
Use of Existing Postal-Owned Space                                          SA-AR-08-002
 In the New York Metro Area


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



for Darrell E. Benjamin Jr.
Deputy Assistant Inspector General
  for Support Operations

Attachments

cc: Katherine S. Banks




                                           6
Use of Existing Postal-Owned Space                                             SA-AR-08-002
 In the New York Metro Area


                                     APPENDIX A

     VACANT SPACE IN THE NEW YORK METRO AREA BY DISTRICT*

                     District         Square Footage of Vacant Space**
              New York               No vacant office/retail space reported
              Central New Jersey                                       1,239
                                     No rentable vacant office/retail space
              Northern New Jersey    reported
              Triboro                No vacant office/retail space reported
              Westchester            No vacant office/retail space reported
              Long Island            No vacant office/retail space reported
              Caribbean                                                2,719
              Total                                                    3,958

*      Per the Vacant Space Report obtained from the FMS portal April 12, 2007.
**     Excludes storage space, restroom vacancies, and space marked unrentable.




                                           7
Use of Existing Postal-Owned Space                                       SA-AR-08-002
 In the New York Metro Area


                                     APPENDIX B

                       NEW YORK METRO AREA
               LEASED ADMINISTRATIVE SPACE BY DISTRICT

                                        Interior Square      Annual
                       District             Footage            Rent
               New York                                 0           $0
               Central New Jersey                       0           $0
               Northern New Jersey                 35,000     $475,689
               Triboro                                  0           $0
               Westchester                              0           $0
               Long Island                         30,250     $750,000
               Caribbean                           25,832      $34,873
               Total                               91,082   $1,260,562




                                          8
Use of Existing Postal-Owned Space                    SA-AR-08-002
 In the New York Metro Area


                  APPENDIX C. MANAGEMENT’S COMMENTS




                                     9
Use of Existing Postal-Owned Space        SA-AR-08-002
 In the New York Metro Area




                                     10
Use of Existing Postal-Owned Space        SA-AR-08-002
 In the New York Metro Area




                                     11
